March 26, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

ROBERT L. OTTO
VICE PRESIDENT. INFORMATION TECHNOLOGY

SUBJECT:     Audit Repori - Facilities Database Application Development Review
             (Report Number EM-AR-02-003)

This repori presents the results of our audit of the Facilities Database Application
Development (Project Number 01BS009IS003). This audit was a self-initiated review
that was included in our fiscal year 2002 Audit Workload Plan.

The audit did not reveal any high-level requirements definition or security deficiencies.
However, we found for the concept solution and program definition process point,
program management did not always follow an established systems development life
cycle methodology, and did not produce a key deliverable. As a result, the Postal
Service assumed a risk that the proposed solution for the Facilities Database will not
meet the established business needs. Additionally, the Postal Service has no
assurance the benefits of the Facilities Database effort will outweigh the costs of
developing a new system or the detriments of remaining with the existing systems which
do not completely meet the needs of the Postal Service. Management agreed to our
recommendations and has planned corrective actions addressing the issues identified in
this report. Management's comments and our evaluation of these comments are
included in this report.

We appreciate the cooperation and couilesres provided by your staff during the review.
If you have any questions or need additional information, please contact Robert Batta,
director. Electronic Commerce and Marketing, at (703) 248-2100, or me at
(703) 248-2300.



Ronald D, Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment
cc: James W. Buie
    Wayne H. Orbke
    James L. Golden
    Susan M. Duchek
Facilities Database Application                           EM-AR-02-003
 Development Review



                                  T A B L E OF CONTENTS
 Executive Summary                                              i

 Parti

 Introduction                                                  1

     Background                                                1
     Objective, Scope, and Methodology                         2
     Prior Audit Coverage                                      2

 Part II

 Audit Results                                                 4

    Systems Development Life Cycle Methodology                 4
                                                               4
                                                               5
                                                               5
                                                               5
         Independent Quality Assurance Representative          5
         Recommendation                                        6
         Management's Comments                                 6
         Evaluation of Management's Comments                   6

    Key Deliverable                                            7
    Recommendation                                             8
    Management's Comments                                      8
    Evaluation of Management's Comments                        8

 Appendix A. Glossary                                          9

 Appendix B. Management's Comments                            10
Facilities Database Application                                                                    EM-AR-02-003
 Development Review


                                      EXECUTIVE SUMMARY

 Introduction                     There are five major stages in the systems development life
                                  cycle. Each stage has several process points that need to
                                  be accomplished to develop a successful project. This
                                  report presents the results of our self-initiated audit of the
                                  concept solution and program definition, as well as the high-
                                  level requirements definition process points of the Facilities
                                  Database application. This is the third report in a series of
                                  Office of Inspector General (OIG) reviews of Postal Service
                                  initiatives in the early phases of development. By early
                                  involvement in the process, the OIG can make
                                  recommendations to resolve issues in the initial stages of
                                  development prior to system implementation. Studies
                                  indicated that it is up to 100 times more costly to make
                                  changes after a system is placed into production.

                                   Our objective was to determine if Postal Service
                                   management: (1) followed sound systems development life
                                   cycle processes; (2) produced key deliverables; and
                                   (3) included key security features during systems
                                   development.

  Results in Brief                 Our review of the Facilities Database did not reveal any
                                   high-level requirements definition or security deficiencies.
                                   However, we found for the concept solution and program
                                   definition process point, program management did not
                                   always follow an established systems development life
                                   cycle^ methodology, and did not produce a key deliverable.
                                   This occurred because program management did not
                                   always understand and follow existing Postal Service
                                   policies, procedures, and guidelines.

                                   As a result, the Postal Service assumed a risk that the
                                   proposed solution for the Facilities Database will not meet
                                   the established business needs. Additionally, the Postal
                                   Service has no assurance the benefits of the Facilities
                                   Database effort will outweigh the costs of developing a new
                                   system or the detriments of remaining with the existing




 ^ A systems development life cycle is a logical process by which systems analysts, software engineers, programmers,
 and end users build information systems and computer applic:atJons to solve business problems and needs.
Facilities Database Application                                                   EM-AR-02-003
 Development Review



                                  systems which do not completely meet the needs of the
                                  Postal Service,

 Summary of                       We determined that the Facilities Database development
 Recommendations                  effort should remain in the concept phase until the
                                  corrective actions are taken. Specifically, we recommended
                                  management conduct a feasibility study and cost benefit
                                  analysis. Additionally, we recommended management
                                  ensure that independent software quality assurance
                                  functions are performed throughout the Facilities Database
                                  project.

 Summary of                       Management agreed with our findings and
 Management's                     recommendations. Corrective actions are under way to
 Comments                         resolve the remaining items in fiscal year 2002.
                                  Management's comments, in their entirety, are included in
                                  Appendix B of this report.

 Overall Evaluation of            Management's comments are responsive to our findings
 Management's                     and recommendations. We agree with the planned
 Comments                         corrective action for each recommendation.
Facilities Database Application                                                                EM-AR-02-003
 Development Review


                                     INTRODUCTION

 Background                       The Facilities Database will provide a single, integrated
                                  database that contains accurate and up-to-date information
                                  on all Postal Service facilities. The Facilities Database is
                                  needed: (1) internally to provide accurate and consistent
                                  information to the customer, and (2) externally to be used by
                                  our major mailers and future Internet customers to improve
                                  ease of doing business with the Postal Service.

                                  Currently, the Postal Service has numerous stand-alone
                                  databases that contain information and demographics about
                                  facilities and the services provided. Most of these
                                  databases have been built along functional lines and are of
                                  minimal use to other functions within the Postal Service.
                                  These databases have usually been populated via hard
                                  copy surveys and are poorly maintained, if at all. The
                                  Facilities Database will not replace the existing stand-alone
                                  databases, but will serve as a centralized repository for core
                                  facility related information.

                                  Our review of the Facilities Database occurred at the end of
                                  the systems development life cycle concept phase, where it
                                  was undergoing concept solution, program definition, and
                                  high-level requirements definition.

                                                 Process Points Re\iewed In Relation
                                            to Ihe Systems Development Life Cycle Phases

                                           CoMC»pl   H aiming   D«iii;ii   Iinp[»m«nl«tiou M»im»u«ii''«




                                  The concept phase covers the identification of a need for
                                  the system, validation of the need, and exploration of
                                  alternative functional concepts to satisfy the need. The
                                  requirements definition phase usually covers functional
Facilities Database Application                                                      EM-AR-02-003
 Development Review


                                  requirements identification and detailed planning for the
                                  development including preparing the project plan. Technical
                                  terms used in this report are described in Appendix A.

 Objective, Scope, and            The objective of this audit was to evaluate the Postal
 Methodology                      Service's Facilities Database development effort in the final
                                  stages of the concept phase in the systems development
                                  life cycle. We reviewed concept solution, program
                                  definition, and high-level requirements definition process
                                  points of the Facilities Database development effort.
                                  Specifically, for these processes we determined if Postal
                                  Service management: (1) followed sound systems
                                  development life cycle processes; (2) produced key
                                  deliverables; and (3) included key security features during
                                  systems development.

                                  Specifically, to accomplish our objective, we reviewed the
                                  business needs statement, assessment report, project plan,
                                  high-level functional requirements, and contract documents.
                                  We interviewed key project management personnel,
                                  including the program manager, program owner, information
                                  system security officer, and end-users to determine their
                                  involvement in the development effort.

                                  We conducted audit fieldwork at Postal Service
                                  Headquarters, the National Customer Support Center in
                                  Memphis, Tennessee, and the Processing and Distribution
                                  Center, in Merrifield, Virginia, from September through
                                  October 2001. In addition, we also reviewed applicable
                                  laws and regulations, as well as information systems
                                  industry standards and best practices. This audit was
                                  conducted from September 2001 through March 2002 in
                                  accordance with generally accepted government auditing
                                  standards and included such tests of internal controls as
                                  were considered necessary under the circumstances. We
                                  did not rely on computer-generated data to accomplish our
                                  objectives. We discussed our conclusions and observations
                                  with appropriate management officials and included their
                                  comments, where appropriate.


 Prior Audit Coverage             Our September 29, 2000, report, State of Computer
                                  Security in the Postal Service (Report Number IS-AR-00-
                                  004) cited that: (1) many Postal Service managers were not
                                  fully aware of their responsibilities for computer security;
                                  and many Postal Service officials viewed computer security
Facilities Database Application                                                     EM-AR-02-003
 Development Review



                                  as the sole responsibility of the information technology
                                  office; (2) a lack of security awareness has resulted in less
                                  than sufficient emphasis placed on planning and budgeting
                                  for computer security; (3) policies and procedures for
                                  computer security were nonexistent, outdated, or oftentimes
                                  not implemented or followed; and (4) the National
                                  Information Systems Security organization did not have
                                  computer security enforcement authority, and was
                                  understaffed, underfunded, and not visible postal-wide.
                                  Management agreed with our recommendations and
                                  indicated they are working to address the issues.
Facilities Database Application                                                     EM-AR-02-003
 Development Review


                                     AUDIT RESULTS
 Systems                          We found that Facilities Database program management did
 Development Life                 not always follow the established systems development life
 Cycle Methodology                cycle methodology during concept solution and program
                                  definition of the Facilities Database. Specifically, program
                                  management did not perform a feasibility study or appoint an
                                  independent software quality assurance representative to
                                  oversee the project. As a result, the proposed solution for
                                  Facilities Database may not meet all the established
                                  business needs.

                                  The objective of this audit was to evaluate the Postal
                                  Service's Facilities Database development effort in the final
                                  stages of the concept phase in the systems development life
                                  cycle. Specifically, we determined if Postal Service
                                  management followed sound systems development life cycle
                                  processes, systems development life cycle methodologies
                                  produced key deliverables, and key security features were
                                  included during systems development. Audit fieldwork was
                                  conducted from September through October 2001.




                                                        m
Facilities Database Application                                                                      EM-AR-02-003
 Development Review




 Independent Quality               Program management did not appoint an independent
 Assurance                         software quality assurance representative.^ Further,
 Representative                    program managers did not institute an alternate system of
                                   controls to ensure the functions of an independent quality
                                   assurance representative were accomplished. For example,
                                   program management did not ensure a software quality
                                   assurance plan was developed, an independent review of
                                   software development life cycle activities was conducted to
                                   ensure process compliance, or key deliverables were
                                   identified for review by an independent party.




^ The software quality assurance representative independently facilitates the development of defect free
products that meet all requirements and are delivered on time at the lowest possible cost
Facilities Database Application                                                      EM-AR-02-003
 Development Review



                                  The primary purpose of an independent software quality
                                  assurance representative is to facilitate the development of
                                  defect-free products that meet all requirements and are
                                  delivered on time at the lowest possible cost. The Postal
                                  Service Software Process Standards and Procedures
                                  guideline recommends that at project initiation an
                                  independent software quality assurance representative
                                  should be appointed to each project.

                                  This appointment did not take place because program
                                  management did not follow existing Postal Service policies
                                  and guidelines or establish an alternate system of controls.
                                  As a result, program management cannot ensure that the
                                  development process was appropriately monitored,
                                  established standards were followed, and system
                                  inadequacies were brought to management's attention.

 Recommendation                   We recommend the senior vice president, chief technology
                                  officer, ensure:

                                     2. Independent software quality assurance functions are
                                        performed throughout the Facilities Database project.

 Management's                     Management agreed with our recommendation and will take
 Comments                         corrective action by adding a software quality assurance
                                  representative to the project team in Quarter 3, FY 2002.

 Evaluation of                    Management's planned actions are responsive to our
 Management's                     recommendation.
 Comments
Facilities Database Application                                                                       EM-AR-02-003
 Development Review



 Key Deliverable                   Program management did not ensure that all key
                                   deliverables were produced during the concept phase.
                                   Specifically, a cost benefit analysis, a key selection criteria
                                   for evaluating alternative solutions, was not accomplished.
                                   Further, program management did not conduct an alternate
                                   study to identify or evaluate costs and benefits of all possible
                                   solutions against predetermined criteria.

                                   To properly manage and initiate a major program, resource
                                   cost estimates should help define the relationship with
                                   corporate direction, designing and testing the concept;
                                   implementing the program; and tracking, reviewing, and
                                   archiving program completion. The Postal Service Program
                                   Management Process auidelines. dated September 1999,
                                   recommends the program manager, with the assistance of
                                   Purchasing and Materials and Finance, and other subject
                                   matter experts, develop an approximation of the costs of the
                                   resources needed to complete program activities.

                                   Further, the Postal Service Software Process Standards and
                                   Procedures, dated March 1995, recommends the cost
                                   estimate include costs from all information systems
                                   supporting organizations for the entire project and be
                                   prepared in conjunction with the feasibility study.

                                   The cost benefit analysis was not prepared because the
                                   program manager believed the cost benefit analysis was
                                   part of the Decision Analysis Report^ process that is
                                   prepared at the end of the concept phase. However, Postal
                                   Service policies recommend the cost benefit analysis be
                                   prepared at an earlier stage in the project.

                                   As a result, the Postal Service has no assurance the
                                   benefits of the Facilities Database effort outweigh the costs
                                   of developing a new system or detriments of remaining with
                                   the existing systems which do not completely meet the
                                   Postal Service needs. In addition, the Postal Service may
                                   have unnecessarily spent time and money on a solution that
                                   is not cost beneficial.




 ** The Decision Analysts Report is a document developed by the requiring organization to justify a project
 investment and to assist the approval authorities in making decisions concerning the use of Postal Service
 funds.
Facilities Database Application                                                     EM-AR-02-003
 Development Review



 Recommendation                   We recommend the senior vice president, chief technology
                                  officer:

                                     3. Complete the cost benefit analysis prior to moving
                                        fonward with a request for funding.

 Management's                     Management agreed with our recommendation and will take
 Comments                         corrective action by including a cost benefits analysis with
                                  the funding request scheduled for Quarler 4, FY 2002.

 Evaluation of                    Management's planned actions are responsive to our
 Management's                     recommendation.
 Comments
Facilities Database Application                                                    EM-AR-02-003
 Development Review




                             APPENDIX A.        GLOSSARY


Term                        Description

Assessment Report           The assessment report was conducted to analyze the current
                            facilities database environment.

Decision Analysis           The Decision Analysis Report is a document developed by the
Report                      requiring organization to justify a project investment and to assist
                            the approval authorities in making decisions concerning the use of
                            Postal Service funds.

Commercial of the            Software available through lease or purchase in the commercial
Shelf Software               market from an organization representing itself to have ownership
                             of marketing rights in the software.

Software Quality            The software quality assurance representative independently
Assurance                   facilitates the development of defect free products that meet all
Representative              requirements and are delivered on time at the lowest possible cost.

Systems                      A systems development life cycle is a logical process by which
Development Life             systems analysts, software engineers, programmers, and end
Cycle                        users build information systems and computer applications to solve
                             business problems and needs.
Facilities Database Application                                                                                      EM-AR-02-003
 Development Review


               APPENDIX B. MANAGEMENT'S COMMENTS

               O w n r a E ft»Mr,
               0 « r TroMnoar Cmcm
               SrHon Mcc ncanruT


               POSIALSBnnCF




                M i t v h 11,3009




                MS. EOSALL

                SUBJECT:            Msnosement H n p o n M to Draft Audll RspOft—FaciUtiw OaUitMM Application
                                    Dewlapmenl Rsvlaw (Rapod Numbor EM-An-02-DRAFT)


                Thti provhtos Iho manaoement fesponse to the Oltica of Inipflctor OarwrBl (OlG) d t M audi
                report on flra Faclttuot Databaae Appljcation Development Review. Tl*e purpoee ol tha review
                wan to ooiennina n ay«tams OBvatopmam u n cyda procatsea ware tottowed, nay daltwenDlas
                Mwra pn>due«d, and key aacivity taaiuraa were kwhjbad dunng ayaUma Onatopmant. W a are
                ploaiod thai ihs ravloi* imramlmd no high-laval ra^ulr«manii dofinhion w aaourity dslioiDrwJiN and
                wn am iwtdriuMino thn mraHfMTMndations lalatad la tti* (wuMEty tludy. aoftwiara qiallty
                usuranca raprasentathw and ooal benoTtto analyaii.

                The attachad InhMTnetbn is dastlfied aa ^satrKratf* and ihould be arampi trom diaclosva u i d v
                ttw Fnwdom of informatton A c t

                tl vou turva any queationa regarding our raaponaa and you would Gk« to diacuas iham tuithar,
                       I cuaoot tho i r a u d i ooordinolor, KalMaan Gobor a\ (20Z) 2Se-fll&6.




                       Robert L O n o
                       Jamei W. Bule
                       Jetlrey L Freeman
                       James L. OoUen
                       Jo^:« Hansen




                W H W X O . DC KCBCMJUO

                r w M l MB M M
                m^iM^.i^                                nastrtcted InloffnaiiM
Facilities Database Application                                                                                                                   EM-AR-02-003
 Development Review




               PMltttlaa D o l a h u * AppUasHon Dttyatopmont Rairtow
               Managafwani Raeponee Harch 11,2009



               n f f f l p i p a n d a H o n l ; Cofflplata a faoalbUtty tiudy on HieFaclUtlaa D a t a b M e prior to
               o b t a h l n g f u n d b t o apprevaL

               Hampom*-. W a agree Vwi a lom^a) faaalbtSty atudy doea not axiat: trawmar, wa ( M l ttiat tlw
               combknticn of two pravioui task ordtr efforta, AsMastnent (3 defivaraUw} artd Ccnoapiimt
               Design (B doiivwaMes): hava garwratad data sutllclanl to complete a lomufized laaaibilty study.
               The audit roport (uitlier atatoa that a Commaniiai Ofl-The-Shair S c A w v a padtaga aolutlon "was
               not tulty evaluated.' Dalherabia * 5 , "Facilttlsa Datsbasa COTS R u a a r c h * dated Fetvuaty 12,
               2001. e w h a l a a the stranotha and waakrwaiaa of COTS ulutlona, eaUefying ttua r w ^ r e m M t
               W B will ognipMa a tonnal teasibdity aludy prior to obtairung lurtding approval.

               Sdwdule: Quaner 3, FV 2002

               Rsaponanrie Executive: JelTFraaman


               B S S f i l D Q t f U t B d s n l : Enetire bidapeoilenl eottware eaaufanc* h i n d i o n a are partonnBd
               throughout the FecUIUee Database p r e l K i -

               Reepona*; We a g r M . W a wO add a Sottwera Qualhy AMurartce repr«»«niath« lo Via pmlool
               tsam upon the kiHiatlon ol Uta next phase Ol work.

               Sct««]tie: Ouarter 3. FY 2002

                ResponslPla Executive: Jail Freeman


               Hacommaiwiattow \ . C o n p l a t a tha boat t w r a l t t a analyala. prtor t o m m t n g f o r w a r d w i t h a
                    tffir funding.

                Reapona*: Waaflrae. The audt report stated that ThaootlbeneDlanalyals bo praparad at an
                oaiftar etaOe in tha prejact.' Tha audri rsport furttMr qiMitea the USPS Program Managemant
                PTQoenQuUQthaslPMPG), ' . . . 4 e w t a p a n « p p n i x l m a i l c i n o l « w o o i U o l t h e f M o u r c a « f > e a c M
                to complate prosrain acttvWes,* and ttta atectronlc Sottwara Prooaea Standatda ft Prooadurea
                (eSPSP).'—itw ooat aatknala Inoljde all ooeis from all intomiatlon syatams auppomng
                organlzattons tor tha entire pn]jact.- W e teal the raquiremenli a d d m s e d by the PlylPO and the
                a C r e r ware aailafwd wrih (MhreraUe ae, Hign L O W I Plan, wtilon pravldoo tha M a t wUmatoa fcr
                the antire pni)o«L The raqueci Mr ttnHng (or the rwxi pnasa wni irutuda boin an » t > n a i > ol o o t t i
                andtneb^nettts.

                Schedule: Ouvtar 4, FY 201^

                HesponslPt* EiecuUvD: Jell Freeman




                                                                 Haatncted inronnalion
